<html>
<title> - IS AL-QAEDA WINNING? GRADING THE ADMINISTRATION'S COUNTERTERRORISM POLICY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
  IS AL-QAEDA WINNING? GRADING THE ADMINISTRATION'S COUNTERTERRORISM 
                                 POLICY

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 8, 2014

                               __________

                           Serial No. 113-130

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE
87-515                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="187f6877587b6d6b6c707d7468367b777536">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida<greek-l>       ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           BRAD SHERMAN, California
ADAM KINZINGER, Illinois             ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   JOAQUIN CASTRO, Texas
TOM COTTON, Arkansas                 JUAN VARGAS, California
PAUL COOK, California                BRADLEY S. SCHNEIDER, Illinois
SCOTT PERRY, Pennsylvania            JOSEPH P. KENNEDY III, 
TED S. YOHO, Florida                     Massachusetts


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Joseph Lieberman (former United States Senator)....     6
The Honorable Jane Harman, director, president, and chief 
  executive officer, The Woodrow Wilson International Center for 
  Scholars (former Member of Congress)...........................    13
Seth Jones, Ph.D., associate director, International Security and 
  Defense Policy Center, RAND Corporation........................    29
Frederick W. Kagan, Ph.D., Christopher DeMuth chair and director, 
  Critical Threats Project, American Enterprise Institute for 
  Public Policy Research.........................................    44
Mr. Benjamin Wittes, senior fellow, Governance Studies, The 
  Brookings Institution..........................................    52

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Joseph Lieberman: Prepared statement...............     9
The Honorable Jane Harman: Prepared statement....................    16
Seth Jones, Ph.D.: Prepared statement............................    32
Frederick W. Kagan, Ph.D.: Prepared statement....................    46
Mr. Benjamin Wittes: Prepared statement..........................    55

                                APPENDIX

Hearing notice...................................................    70
Hearing minutes..................................................    71


                    IS AL-QAEDA WINNING? GRADING THE
                   ADMINISTRATION'S COUNTERTERRORISM
                                 POLICY

                              ----------                              


                         TUESDAY, APRIL 8, 2014

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 2 o'clock p.m., 
in room 2172 Rayburn House Office Building, Hon. Ted Poe 
(chairman of the subcommittee) presiding.
    Mr. Poe. The committee will come to order. Without 
objection, all members may have 5 days to submit statements, 
questions and extraneous materials for the record subject to 
the length of limitation in the rules.
    Al-Qaeda is not on the verge of defeat. The administration 
called al-Qaeda's affiliates a junior varsity squad of 
wannabes. If groups like ISIS and al-Nusra are junior varsity I 
would hate to see what the varsity team looks like.
    Al-Nusra, as you may recall, has taken credit for the 
Benghazi murders. Since the death of bin-Laden the 
administration has announced the near defeat of al-Qaeda, 
describing the core leadership as a shell of its former self.
    But some intelligence officials say that the organization 
in fact is changing and actually franchising. In recent 
testimony, Director of National Intelligence James Clapper and 
Defense Intelligence Director Lieutenant General Mike Flynn 
said that al-Qaeda was not on the run and not on the path to 
defeat.
    It has been 13 years since 9/11. The administration 
sometimes can't even get on the same page about the nature of 
al-Qaeda's threat to America and the rest to the world. When 
our soldiers raided bin-Laden's home in Pakistan, they 
recovered a treasure trove of documents, computers and the 
like.
    These bin-Laden documents should be publicly released. This 
would not harm U.S. national security in any way. Actually, it 
is the opposite. If world renowned al-Qaeda experts could 
analyze these files they could tell us a lot we don't know 
about al-Qaeda, how they operate, what their vulnerabilities 
are, et cetera.
    For some reason the administration seems to be pushing 
back. According to news reports, intelligence officials with 
knowledge of documents say that they show a far more 
complicated picture of al-Qaeda than the administration seems 
to be willing to admit.
    If these documents are not made public, they should at 
least be provided to the new independent commission that has 
been established by Congress to study how al-Qaeda has evolved 
since 9/11.
    Think of this as a new 9/11 commission. Al-Qaeda has not 
been reduced to a few old men hiding somewhere in Pakistan. Al-
Qaeda and their affiliates have a strong global presence as we 
can see by the map that is on each side of the wall. The red 
areas mark the areas where al-Qaeda is today and the blue areas 
mark other terrorist groups. As we can see these are in Africa 
and the Middle East primarily.
    Al-Qaeda and their affiliates are devastating Iraq. We have 
seen more deaths in Iraq over the last year than the worst year 
when our troops were there.
    Al-Qaeda is all over Somalia. This branch crossed over into 
Kenya to launch a spectacular attack. It killed over 60 people 
who were just shopping at a mall.
    Al-Qaeda is resurgent in Libya. The government can't go 
into the eastern half of its own country because it is 
controlled by terrorists.
    Al-Qaeda affiliates killed three Americans when they took 
over an Algerian gas plant last January. One of those victims 
was my constituent from Texas, Victor Lovelady. Much like 
Benghazi, the victims still don't have justice. In Syria groups 
like ISIS and al-Nusra are the most capable of the fighters.
    As many as 11,000 foreign fighters have traveled to Syria 
to join the fight against the dictator Assad. Many of these 
potential terrorists are from Europe. Some are from even the 
United States.
    At some point they will return home radicalized and highly 
trained. This is not a pleasant thought. Today, al-Qaeda 
controls and operates in more territory than it has at any time 
since its creation. Al-Qaeda on the run? Hardly.
    Although the use of armed drones and precision kill or 
capture raids can kill bad guys here and there, this is not a 
universal strategy or long-range plan. There does not seem to 
be a whole government plan to disrupt, dismantle and defeat al-
Qaeda.
    At some point, al-Qaeda could destabilize the entire Middle 
East and then work its will in North Africa. If it is allowed 
to go down that road the consequences for U.S. national 
security are unthinkable. Al-Qaeda is playing the long-term 
game.
    In the United States, it is questionable whether we are in 
the game. The core group of al-Qaeda and many of their 
affiliates actively seek ways to strike the United States at 
home and abroad.
    Many of these plots, luckily, have either been foiled or 
failed because of incompetence or luck. We need to call this 
like it is. Al-Qaeda is a robust global organization that is 
not on the path to defeat. They still have a global plan--a 
global long-range plan. Until we come to terms with this, we 
cannot hope to develop an effective approach to defeat them.
    And I will now yield 5 minutes to the ranking member for 
his opening statement, Mr. Sherman from California.
    Mr. Sherman. Thank you, Mr. Chairman. I am impressed with 
the witnesses we have been able to start this panel off on and 
I am not sure that we should have a hearing grading the 
administration's past. But if we are able to secure such fine 
witnesses with such a title then maybe it is worthwhile.
    I am much more interested in determining what our policy 
should be in the future than grading the past. But if you are 
going to grade this administration we ought to grade on the 
curve. And there are only two Presidents in this century 
focusing post-9/11.
    The number one terrorist organization is the Iranian 
Government, the number one state sponsor of terrorism. Now, 
where were they on September 12th, 2001? They faced a great 
ideological opponent in al-Qaeda and the Taliban in 
Afghanistan.
    Their number one geostrategic threat was Saddam Hussein, 
who had killed close to 1 million Iranians. They faced a 
unified American population galvanized by the events of 9/11 
and they were nowhere close to a nuclear weapon.
    What happened after that? We removed Iran's enemies east 
and west. Baghdad, which had been their number one geopolitical 
threat, became their number one geopolitical ally.
    The unity of the American people was squandered by the 
absence of weapons of mass destruction in Iraq and a decision 
to invade Iraq even after Saddam at the last minute agreed to 
inspections of even his presidential sites.
    And as for Iran's nuclear program, we went 8 years in which 
President Bush used all the power of the presidency to prevent 
this Congress from adopting any new sanctions of significance 
and refused, after hearing a hearing in this room, to enforce 
the laws we already had. And so when this President came to 
office, bin-Laden was alive and the Iranian nuclear program was 
alive and kicking.
    Since then we have gotten out of Iraq. We got out of 
Afghanistan. We have killed bin-Laden. So I would say if you 
are going to grade on the curve you got to give this 
administration an A. What are the standards that we should 
have?
    There are those who believe that if only this President had 
a different personality that all the Islamic extremists would 
endorse Jeffersonian democracy. It is not true. We as a people 
have agreed to only 9 percent of our GDP being collected in 
income taxes.
    That is 9 percent to cover our international and domestic 
government excluding Social Security, and for that we are told 
that somehow by force of personality the President should be 
able to assure the territorial integrity of Ukraine, Japanese 
sovereignty over every island in dispute and the complete 
abolition of al-Qaeda-inspired terrorism.
    That is a lot to expect. The fact is we have a limited 
budget, a limited willingness to commit our forces and given 
those limits this administration has achieved a lot.
    Now, al-Qaeda has metamorphasized but they haven't been 
able to have the technological capacity to hit us again, as 
they did on 9/11. That doesn't mean that Islamic extremism is 
not alive and well and living on the map that the chairman just 
showed us.
    So I think given the limited taxes we are willing to 
collect, the limited money that is available for international 
operations including the Pentagon and the intelligence agency, 
given how close Iran was to a nuclear weapon on the day this 
President took power, I would say that if we grade it on a 
curve we will award an A.
    But I look forward to trying to craft a foreign policy that 
looks forward rather than grading any past President and with 
that--oh, finally, I do want to comment upon the chairman's 
idea that the papers collected with bin-Laden should be make 
public.
    They should only go to the Intelligence Committee. They are 
as sensitive as all the other documents that only go to the 
Intelligence Committee and if we were to publish those papers 
it would be a last will and testament from a man with millions 
of supporters ready to die for him or millions of supporters 
and many willing to die for him.
    Those papers would provide guidance as to what he was 
thinking, guidance as to what targets he thinks should be hit, 
ideological inspiration to those who find their ideological 
inspiration in Islamic terrorism.
    So I don't think that the last will and testament or final 
papers or anything else of Mr. bin-Laden's should be revealed 
to anyone who we will not reveal the most sensitive secrets, 
and I yield back.
    Mr. Poe. The chair recognizes Mr. Kinzinger from Illinois 
for a 1-minute opening statement.
    Mr. Kinzinger. Well, thank you, Mr. Chairman, and to our 
witnesses thank you for being here. It is great to see you. I 
am unapologetic about American strength and American power 
around the globe.
    I think America is a great stabilizing force. We don't seek 
to be an empire but we also can't stand by and watch people 
oppressed. We can't stand by and see threats to our homeland.
    And I would like to remind everybody that this discussion 
emanates because of 9/11 when thousands of our fellow brothers 
and sisters in this country were killed by a ruthless murderer 
and many of his offshoots still exist today.
    I believe that when America retreats from the world that 
chaos fills that vacuum or the leadership from a country that 
we are not necessarily good friends with. So I am looking 
forward to hearing from our witnesses about how the United 
States can play a stronger role.
    I agree with Mr. Sherman about the importance of having a 
discussion about military spending and diplomatic spending. But 
I think at the end of the day we must never tire, we must never 
waver and we must never forget the enemy that we are facing 
lest we face them again back here on the shores.
    And I thank you for our witnesses and, Mr. Chairman, I 
yield back.
    Mr. Poe. The chair recognizes Mr. Perry from Pennsylvania 
for 1 minute in his opening statement.
    Mr. Perry. Thank you, Mr. Chairman. I would like to thank 
the witnesses as well. Great to see you again. This will be my 
opinion.
    Al-Qaeda and its affiliates control more territory now than 
ever--than they ever have and are using that space as 
previously done in Afghanistan to plan and prepare attacks 
against the U.S. and U.S. interests.
    President Obama and the administration repeatedly have 
conveyed that al-Qaeda is on the run and has been decimated. 
However, for months al-Qaeda and its affiliates have been 
increasing their presence and attacks in Iraq, neighboring 
Syria and elsewhere in the region.
    Having served in Iraq as a commander of a large task force, 
I personally witnessed the courage and sacrifice of our troops 
in Iraq, and to correct the record we found the very same WMDs 
currently found in Syria when I was in Iraq.
    As U.S. forces withdraw in 2011, however, President Obama's 
administration failed to negotiate an agreement with Iraq that 
could have allowed a limited U.S. military presence to help the 
Iraqis keep al-Qaeda from filling the power vacuum created by 
the withdrawal.
    If this administration again fails to reach an agreement 
allowing a critical stabilizing force in Afghanistan it will 
create yet another power vacuum but this time in al-Qaeda's 
traditional sanctuary where the Islamist militants and 
terrorists likely will thrive again.
    And I yield back. Thank you, Mr. Chairman.
    Mr. Poe. And without objection, the chair recognizes the 
gentleman from California, Mr. Rohrabacher, for his opening 
statement.
    Mr. Rohrabacher. Thank you very much, and I welcome my 
former colleagues and nice to see you again, Jane, and Senator, 
and I appreciate seeing you. Let me just note America--this is 
not a piling on our President because he happens to be a 
Democrat.
    Most of us are adult enough to and have seniority enough 
here to remember that the worst mistake made in my time in 
Congress was supporting George W. Bush's order to go into Iraq, 
which turned out to be a catastrophe for our country, and we 
ended up ousting a secularist leader from that part of the 
world.
    But what we have today is a President of the United States 
who the American people don't trust his word. The President of 
the United States has lied to us about Benghazi. It is clear 
that he has intentionally lied to us about an attack that left 
an American Ambassador dead.
    We know also that he was--we don't understand the 
relationship that he had with President Morsi and whether that 
had something to do with this lie to the American people.
    And finally, we have a President who is being very cautious 
about helping General el-Sisi, who is the one bulwark against 
radical Islam in that part of the world. So we are not just 
making this partisan. We recognize George Bush's mistakes. But 
we have to focus on where this President is leading us and it 
is right over the cliff.
    Mr. Poe. Gentleman's time has expired. I will now introduce 
the witnesses that we have. First, without objection, all the 
witnesses' prepared statements will be made part of the record. 
I ask that each witness will keep their presentation to no more 
than 5 minutes and we will begin with our first panel of 
witnesses.
    We have two excellent witnesses here today and I 
appreciate--we all appreciate the fact you took time, both of 
you, to be here. Senator Lieberman, as a former senator from 
Connecticut, congratulations on UCONN, by the way.
    Mr. Lieberman. We consider that to be an event of 
international importance.
    Mr. Poe. In March 2013, he joined the American Enterprise 
Institute as the co-chair of the American Internationalism 
Project. The project aims to rebuild and reshape a bipartisan 
consensus around American global leadership and engagement. He 
is also senior counsel at Kasowitz Benson Torres & Friedman.
    Representative Jane Harman is the director, president and 
CEO of the Woodrow Wilson International Center for Scholars. 
During her nine terms as a representative in the 36th District 
of California, she served on all the major security committees 
in the House of Representatives.
    Senator Lieberman, we will start with you and you can 
present your testimony.

  STATEMENT OF THE HONORABLE JOSEPH LIEBERMAN (FORMER UNITED 
                        STATES SENATOR)

    Mr. Lieberman. Thank you very much, Chairman Poe, Ranking 
Member Sherman, distinguished members of the committee. I am 
honored to appear before you today and particularly happy to be 
here with my dear friend, Jane Harman.
    You have two of the four of us of one Gang of Four, the 
other two being Pete Hoekstra and Susan Collins, who spent a 
lot of time working with all of you to pass the Terrorism 
Prevention Act of 2004.
    Let me begin by thank you for holding this hearing. We all 
know that in the aftermath of 9/11 the overwhelming focus of 
our Government was on the threat of terrorism, in particular, 
al-Qaeda.
    Twelve years later that is no longer the case. This is in 
large part a consequence of our success but the fact is that 
the absence of an attack anything like 9/11 since then is not 
because of an absence of terrorist plots or plans against the 
United States.
    Rather, it is because of the vigilance, determination, 
courage and creativity by national security professionals and 
elected leaders across two administrations as well as the close 
cooperation in help of America's allies and partners around the 
world. Pride in this achievement, however, has got to be 
tempered by an awareness of several realities.
    First, al-Qaeda and its affiliates remain a ruthless, 
determined and adaptive adversary. The underlying ideology that 
inspires and drives al-Qaeda to hate and attack us and our 
allies, which is the ideology of violent Islamist extremism, is 
obviously neither defeated nor exhausted.
    For that reason, our safety as a nation is ultimately 
inseparable from our ability first to recognize the continuing 
threat from violent Islamist extremism and to adapt and meet 
it, and I want to say that we will do that not only with a 
strong counter terrorism program but by making sure that we 
stay engaged more generally in the world beyond our borders.
    Unfortunately, we increasingly hear voices who say that the 
threat from terrorism is receding or that it was overblown in 
the first place and that the end of this conflict is near.
    I wish I could say I agree with that but those arguments 
are badly mistaken. There is no question that the U.S. 
beginning under President Bush and continuing under President 
Obama has inflicted severe damage to core al-Qaeda.
    But if I many borrow a phrase from David Petraeus, the 
progress we have achieved against core al-Qaeda, though real 
and significant, is also fragile and reversible.
    While space for core al-Qaeda in tribal Pakistan has been 
reduced thanks to U.S. pressure in recent years, territory 
where al-Qaeda affiliates can find sanctuary has grown 
dramatically during this same period, particularly in the 
Middle East, North Africa and sub-Saharan Africa.
    Al-Qaeda and other Islamist extremist groups have 
repeatedly exploited Muslim majority countries weakened or 
fragmented by conflict and neglected by the international 
community.
    They take advantage of these places and people to recruit, 
radicalize and train the next generation of extremist foot 
soldiers. That is why al-Qaeda first went to Afghanistan in the 
'90s, why they turned to Yemen and Somalia in the 2000s and why 
today they are fighting to build sanctuaries in Syria, Libya 
and Iraq.
    Several factors make the prospect of al-Qaeda sanctuaries 
in these three countries especially dangerous. The first is 
their respective locations. Syria and Iraq are the heart of the 
Arab Middle East, bordering key American allies including 
Israel, Jordan, Turkey and Saudi Arabia.
    Libya and Syria are Mediterranean states comparatively easy 
to reach from the West, in contrast to remote Afghanistan and 
Pakistan, and Libya is also adjacent to vast Sahel with its 
weak and poorly-governed states.
    These are also places, I want to stress, where U.S. policy 
makers have signaled that involvement of the U.S. military is 
for all intents and purposes off the table or at least severely 
constrained. And that means that the U.S. is not able to 
effectively combat or even deter the rise of al-Qaeda in these 
countries.
    Of the three countries that I have mentioned, the situation 
in Syria is, I believe, by far the most alarming, the failure 
of American policy by far the most profound and its 
implications for our national security the most severe.
    According to analysts, there could be as many as 10,000 
foreign fighters in Syria today. This means that there are more 
foreign fighters in Syria now than there were during the peak 
of the wars in either Iraq or Afghanistan.
    To me, that is a stunning number. The director of national 
intelligence recently described Syria as an apocalyptic 
disaster. Secretary of Homeland Security recently warned that 
Syria has become, and I quote, ``a matter of homeland 
security.''
    In my opinion, Syria has become the most dangerous 
terrorist sanctuary in the world today and as far as I can tell 
the U.S. has no coherent or credible policy for dealing with 
that reality. There is much we could be doing that we are not 
and I will briefly describe what I hope we will do.
    In Afghanistan, we can choose not to squander the gains of 
the past decade and instead keep a sufficient follow-on 
military presence to sustain the increasingly capable Afghan 
national security forces in our shared fight against al-Qaeda 
and the Taliban.
    In Libya, we can put in place a large-scale well-resourced 
U.S.-led effort to build up the new Libyan army and security 
forces. In Iraq, we can make clear, and I hope we will, we are 
willing to support Iraqis against al-Qaeda including with a 
selective use of U.S. air power, and if the Iraqis are prepared 
to talk to us again about a SOFA that grants immunity to our 
soldiers on the ground there I hope we will talk about a 
presence of a small force of American military, particularly 
embedded advisors.
    In Syria, we can much more aggressively provide militarily-
relevant support to non-extremist rebel forces who are fighting 
our two most dangerous enemies in the world there at once--al-
Qaeda and Iran.
    None of these actions represent simple or quick solutions. 
The fact is there is no simple or quick solution to the threat 
posed by al-Qaeda.
    But in my opinion, there are smart measured steps we can 
take that will put us in a stronger position to deal with these 
threats and make us safer as a country. It is also worth noting 
that in every one of these countries we have repeatedly seen 
that al-Qaeda and its extremist vision, violent vision, are 
rejected by the overwhelming majority of people living there.
    In Iraq, Syria and Libya we have seen popular grassroots 
movements rise up against al-Qaeda and their extremist allies 
and in Afghanistan as recently as this past weekend we saw 
millions of people peacefully and enthusiastically 
participating in a democratic election, defying the threats of 
the Taliban as well, frankly, as the naysayers in the West who 
claim that the Afghans don't want democracy.
    They obviously do want to control their own future and they 
do not want to go back to the Taliban past. The question is 
whether we will provide these anti-extremist majorities in the 
Muslim world with the help and support they need or whether we 
will abandon them to the tyranny of a violent majority.
    Let me say finally that ultimate success in this struggle 
depends not simply on the death of particular terrorist leaders 
or the destruction of particular terrorist groups, important 
though that is.
    It requires the discrediting of violent Islamist extremism 
as an ideology, and let me underscore here the enemy is violent 
Islamist extremism, a political ideology that seeks to justify 
totalitarian political systems by misusing a great world 
religion.
    Mr. Chairman, if I may say in closing and go back to a 
great world leader of the last century, when it comes to the 
fight against al-Qaeda and violent Islamist extremism, the 
harsh truth is, according to Churchill, now this is not the 
end. It is not even the beginning of the end. But it is perhaps 
the end of the beginning.
    Thank you.
    [The prepared statement of Mr. Lieberman follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Poe. Thank you, Senator Lieberman. As you all have 
heard, it is those famous bells that are ringing but we will go 
as far as we can before we recess for votes.
    Representative Harman.

 STATEMENT OF THE HONORABLE JANE HARMAN, DIRECTOR, PRESIDENT, 
 AND CHIEF EXECUTIVE OFFICER, THE WOODROW WILSON INTERNATIONAL 
        CENTER FOR SCHOLARS (FORMER MEMBER OF CONGRESS)

    Ms. Harman. Thank you, Mr. Chairman.
    I don't miss the bells but I do miss many friends and I 
express especially warm affection for the Californians on your 
panel and for my dear friend, Joe Lieberman, who I consider an 
honorary Californian.
    So it is nice to be before you today. I said to Ranking 
Member Sherman that many good people continue to serve in this 
House. The problem is the business model is broken and that is 
a frustration I know for all of you and I see heads nodding on 
a bipartisan basis.
    On the subject at hand, I flew in from Boston today, 
mindful that the anniversary of the Boston Marathon bombing is 
next week. At a time of horror, Boston was resilient and 
remained strong.
    The damage was contained, evidence that our country has 
changed and matured since 9/11. Last week, however, Ayman al-
Zawahiri, who is, as we know, successor to Osama bin-Laden as 
the leader of al-Qaeda, released an audio message about the 
death of someone called Abu Khalid al-Suri, who was Zawahiri's 
representative in Syria.
    Al-Suri was also a founding member and senior leader in 
Ahrar ash-Sham, a militant group in the Islamic front, a 
coalition of several rebel groups. Al-Suri was killed in 
February by two suicide bombers in Aleppo.
    In the audio tape Zawahiri recalled knowing al-Suri since 
the conflict against the Soviet Union forces in Afghanistan in 
the '80s--in the 1980s and he called for Islamist fighters to 
reject the infighting in Syria. Sounds a little bit like 
Congress.
    Zawahiri said, ``Everyone who has fallen into these sins 
must remember that they accomplish for the enemies of Islam 
what they could not accomplish by their own abilities.''
    So why does this matter? Because now more than any other 
time since 9/11 it is extremely hard to differentiate terror 
groups from your average band of militants or to understand 
their various missions and strategies.
    No longer is it just good guys and bad guys. It is also 
terrorist on terrorist. It is bad guy versus bad guy, 
complicated further by misguided and dangerous transfers of 
weapons and money by some Gulf States to groups like ISIS, 
which even al-Qaeda has denounced.
    In a perverse twist, 13 years after the U.S. entered 
Afghanistan, a country with little governance that served, as 
we all know, as a safe haven for al-Qaeda to plan the 9/11 
attacks, we may be seeing its sequel in Syria.
    And after years of small steps, our options to influence 
the situation are limited. Some predict that the only way 
America will engage directly in the Syrian conflict is a CT 
mission following an attack on us or our interests.
    At a dinner I attended in London over this weekend, several 
prominent observers predicted just this. I sure hope it doesn't 
turn out that way.
    The good news is that it is highly unlikely that the U.S. 
will suffer a catastrophic terror attack on the scale of 9/11 
ever again based on the security improvements put in place 
since then.
    But the risk of lower tech and lone wolf attacks remains 
and perhaps grows. Crucial is an understanding of the field of 
play. As the threat continues to evolve, the U.S. must continue 
to reevaluate our strategy to counter terrorism and consider 
answers to the following four questions.
    One, how has the threat evolved over time? We all know that 
what once was a highly centralized structure, core al-Qaeda, 
has been decimated. I personally don't think it will be able to 
recreate itself but we should watch it.
    Rather than disappear, however, al-Qaeda has morphed into a 
decentralized horizontal organization composed mainly of so-
called affiliates.
    Question two--are we giving al-Qaeda too much credit? There 
are affiliates and connected groups but they are opportunistic 
and don't always share the same goals and aren't always 
welcomed by al-Qaeda. The latest Zawahiri audio tape is a case 
in point and let us remember that it helps the al-Qaeda 
narrative to call every terror group al-Qaeda. They are not.
    Question three--how will the long-term consequences of a 
war-torn and destabilized Syria impact our strategy? As 
Homeland Security Secretary Jeh Johnson said recently at the 
Wilson Center, Syria is now a homeland security problem.
    A major part of our effort must be to use a whole of 
government approach including aid and development efforts 
rather than just kinetic tools to deal with refugees, stagnant 
economies and challenged leaders.
    Forty-one percent of Syrians have been displaced, 150,000 
are dead and millions are squatting outside the country in 
neighboring states like Jordan.
    Question number four, perhaps the most important, and I 
will conclude very quickly, Mr. Chairman--what is our 
narrative? As mentioned, next week marks the anniversary of the 
Boston bombing.
    The Tsarnaev brothers, at least Tamerlan, were radicalized 
in part on the Internet. We need to win the argument with the 
next kid who is trying to decide whether or not to plant a 
pressure cooker bomb or strap on a suicide vest.
    Many think out in the world that the U.S. stands for 
drones, Gitmo, gun violence and spying. What do we really stand 
for? The rule of law, tolerance, economic opportunity, 
generosity to our neighbors and those in foreign lands plagued 
by natural disasters.
    But we aren't making the sale. The Middle East Research 
Institute found that since Inspire Magazine's launch in 2010--
that is the Islamist hate magazine published in the boonies of 
Yemen--over 20 young people have been arrested on terrorism 
connected charges with copies of Inspire in their possession, 
and that is just in the United States.
    There may be many more we don't know about. Ending the wars 
in Afghanistan and Iraq should help but we must also stop using 
the AUMF as the legal bedrock for a grab bag of CT operations 
around the world.
    Closing Guantanamo Bay Prison must happen and we still 
haven't fully explained the legal framework for our 
surveillance efforts, efforts I support but under and within a 
strict legal framework.
    In conclusion, as one European colleague said recently, we 
have changed our culture from need to know to need to share. 
But the new paradigm, sadly, is need to blame.
    As I have often said, the terrorists won't check our party 
registration before they blow us up. So on the anniversary of 
Boston, let us unite to tell the right story about America.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Harman follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Poe. I want to thank both of our witnesses for their 
testimony. We are going to be in recess until the votes are 
over. Ten minutes after the last vote we will reassemble and 
then we have a few questions for you all.
    Thank you very much for your patience.
    [Recess.]
    Mr. Poe. The meeting will come to order. Thank you both for 
returning. I hope you had a good conversation while we were 
voting to save the country.
    Several questions--you both are experts. I want to make the 
questions general so you both can weigh in on them. Tell me a 
little more in detail about al-Qaeda. How many of them are 
there? Senator, can you tell us?
    Mr. Lieberman. Yes. Of course, when I was a senator I could 
say I would like to tell you but I can't--it is classified. But 
the truth is at this moment I don't know the exact answer.
    I am struck by the number, which has gained some currency, 
that there are--if not al-Qaeda there are 10,000 foreign 
fighters in Syria now so they are members of al-Qaeda or 
associated groups or groups that could fit the general 
description of violent Islamist extremists.
    I mean, the truth is in some of the countries we worry 
about the numbers of al-Qaeda or associates are probably in the 
hundreds and yet if you are, you know, prepared to blow 
yourself up to kill people you can still have a terribly 
painful effect on a society.
    Mr. Poe. If you talk about the 10,000 foreign fighters in 
Syria, are you just talking about those that are fighting 
against the government or are you including Hezbollah on the 
side of the government?
    Mr. Lieberman. No, I am not including Hezbollah. These are 
primarily, excuse me, Sunni and, of course, I am not including 
the Free Syrian Army or the other opposition groups that 
started this with a peaceful protest.
    These are violent Islamist extremists who have come in from 
around the world, not just the region. That is a big number and 
that is why I said in my testimony that I think that Syria 
today is rapidly becoming the most threatening terrorist 
sanctuary in the world.
    Mr. Poe. Representative Harman.
    Ms. Harman. Well, I said in my testimony that some are 
predicting now that the way we will finally intervene 
adequately in Syria is when there is, unfortunately, a 
terrorist attack against us or our interests by those there.
    I agree with Senator Lieberman that Syria could easily 
become the sequel to Afghanistan in training large numbers of 
terrorists.
    But on your question of how many in al-Qaeda, I think there 
is no answer to that question. I mean, think amoebas. I mean, 
it is a--there is a loose affiliation of terror groups that 
form and reform around projects. Some of them are al-Qaeda. 
Some of them are not.
    Al-Qaeda is now fighting with groups like ISIS, which it 
considers too radical. I find that quite amazing to get your 
head around. But also there are Sunni and Shi'a terror groups 
inside of Syria, for example.
    Hezbollah is a Shi'a terror group and yet a lot of these 
other groups, al-Qaeda being one, are Sunni groups and they are 
fighting each other. So it is just two conclusions. Number one, 
it is I think impossible to measure but, number two, let us not 
overstate the number of al-Qaeda. That is their narrative. We 
don't want to make them look good. Some of these groups are not 
al-Qaeda.
    Mr. Poe. All right. Senator, you mentioned during the--your 
testimony three areas of concern--Syria, Libya, Somalia--and my 
opinion is the United States, the public, is ``war weary'' of 
military intervention in some other country.
    So what would be, is or should be our foreign policy, our 
plan, our national defense plan in specifically those areas and 
more generally al-Qaeda worldwide?
    Mr. Lieberman. Well, the public obviously is war weary. I 
mean, we are going through a period now not unlike others we 
have in our history that usually follow either unpopular wars 
or wars ending, and often coincide with tough economic times 
and people want to pull back from the world.
    Almost every time that happens we get drawn in late to 
conflict at a much greater price in life and national assets--
national treasure. So like so much else this comes down to 
leadership.
    I mean, you are holding this hearing, I believe, to remind 
at least, if I may say so respectfully, to remind your 
colleagues and Congress and hopefully the public that al-Qaeda 
is not defeated--that the violent Islamic extremists are out 
there and they despise us.
    They want to kill us, and give them an opportunity and they 
will, and it is a slogan but it has a lot of substance to it. I 
would rather fight them over there than here, and we see now 
the evidence of them massing in these places we have talked 
about--Syria, Libya, increasingly Iraq and Afghanistan if we 
totally pull out.
    And so I think it requires leadership that has the 
fortitude to stand up and say if we--and I am not talking about 
a big ground war anywhere in the world but if we stay involved 
sometimes economically in Libya, assisting the development of 
their army, sometimes being willing to assist with the limited 
use of our air power we are going to save ourselves a lot of 
lives and a lot of trouble later on.
    Ms. Harman. Well, I agree but I would add another 
dimension. As I said in my testimony, I think just using 
kinetics is not going to defeat this problem and most of our 
major military leaders say the same thing.
    I do think we have to win the argument with some kid in the 
boonies of Yemen deciding whether to strap on a suicide vest 
and the way we win our argument--we win that argument is to 
convince him of a narrative about the United States, very 
different from the one he believes--the propaganda he has been 
brainwashed to believe and that will require more than the use 
of kinetic force.
    I would keep it on the table but I also would do other 
things--diplomatic efforts, economic efforts, doing things that 
we are now doing in North Africa to keep states from failing. 
We are inserting--it is a very interesting thing that we are 
doing--some of our special command forces to keep governments 
from failing. That helps. So I think it is a complicated 
problem but Whac-A-Mole is not an adequate solution.
    Mr. Lieberman. Mr. Chairman, if I can really briefly, I 
want to say that I would actually agree with Congresswoman 
Harman and in my opinion it is not an either/or. There are 
circumstances where we have to use our muscle or we have to 
help train local forces in our own self-security interests.
    But in the end, as I mentioned briefly in my remarks, this 
is an ideological conflict, as ideological as the Cold War was, 
with a radical minority within the Muslim world rejected every 
time there is a vote by the majority of Muslims in the 
countries that we have got to stop ideologically.
    Mr. Poe. Thank you. I yield to the ranking member for his 
questions.
    Mr. Sherman. Yes. First, an observation--I couldn't agree 
with the two witnesses more that not only do we need kinetic 
force but we have to win the argument, and part of that is 
broadcasting and webcasting and getting our message out. But 
another part is recognizing that there is a whole area of 
discourse that is foreign to us.
    We make our arguments based on this news development that 
is reported on Fox or that insight on MSNBC. To my knowledge, 
our broadcasting board of governors hasn't employed a single 
Islamic scholar and yet if we are going to make this argument 
it can't just be based on econometrics.
    It can't just be based on the things that are relevant to 
our political discourse. We have got to meet them Koran verse 
to Koran verse and Hadith to Hadith. But that is an 
observation. Now I am going to move on to an incredibly long 
question.
    The big buzz word in foreign policy is pivot to Asia, and I 
wish we were talking about trade missions to Tokyo and teaching 
Mandarin in our schools. But that is not what it means.
    Pivot to Asia means focus our national security assets to 
confront China, and the Senkaku Islands give us a good pretext 
and rallying cry to do that. It means that all the decisions 
being made at the Pentagon today about which--what kind of 
research to do, what weapons to procure, what kind of training, 
deployment, budgeting is all focused at least until Crimea on 
the seas around China.
    And my theory, and it is an unfortunate one perhaps, is 
that we often in this country don't make decisions based on 
what is in the national interest but rather based on what is in 
the interests of the institutions making the decision.
    Now, the Pentagon and the rest of our national security 
establishment have a history. Since 1898, we have had a 
glorious victory every time we have confronted a conventional 
military foe, and perhaps our most glorious victory was against 
the Soviet Union where we won a tremendous victory without a 
major kinetic action.
    And since the Philippine insurrection briefly after the 
Spanish war, every time we have confronted a non-uniformed 
asymmetrical enemy we have had a frustrating situation that 
didn't meet the needs of and actually undermined the national 
security establishment.
    Now, the idea is we are going to pivot toward Asia. That 
allows us to confront a conventional foe and to prevail because 
our airplanes can shoot down their airplanes. But pivot toward 
Asia assumes that we can pivot away from the Middle East and 
Islamic extremist terrorism.
    I would ask our witnesses have we, like, solved this whole 
Islamic extremism problem and is it time to pivot away from the 
Middle East and North Africa and wash our hands of it? Ms. 
Harman.
    Ms. Harman. Absolutely not. I have been saying lately no 
more pivots. I think U.S. leadership and focus is needed 
everywhere in the world and it is a very dangerous world and 
our leadership is enormously important.
    Obviously, everything is not equal and in every part of the 
world we have to prioritize. But the Middle East--the problems 
in the Middle East are not going away and our leadership is 
indispensable.
    As we have now learned from Crimea, the problems in Central 
Europe and Europe are not going away and our leadership is 
indispensable, ditto Africa, Latin America, et cetera, 
including Asia.
    The word pivot is also a--I think a wrong description of 
what we intended in Asia. It was corrected to be rebalanced but 
even with that I would take issue. I think it is important to 
have a focus on Asia. I think that focus should not be on 
confronting China.
    I think that focus should be on supporting our allies in 
the region and hoping that China's rise is a peaceful rise and 
that we are--we build a stronger relationship that is not 
adversarial.
    I don't mean it will be easy but we build a stronger 
relationship that is not adversarial and in that regard I 
finally would say that I hope this Congress will find a version 
of trade promotion authority it can support and then will help 
conclude trade negotiations with Europe and Asia and pass trade 
agreements in both regions.
    Mr. Sherman. I will just jump in and point out that the 
middle class of the United States has suffered a lot from the 
trade policy we have had so far and also what is not 
illustrated is if you double trade you double the opportunity 
to recognize income in the Cayman Islands.
    And our ability to support our military is dependent upon 
those income tax collections that are very hard to collect from 
multinational business. But Senator Lieberman, should we be 
focusing on the Senkaku Islands or on Islamic extremism or 
raising taxes so we can do both?
    Mr. Lieberman. So it is not easy but the truth is we have 
got to--we can't pivot away from any one region in the world 
because they all matter to our security and our prosperity.
    Probably today we are more threatened by what is 
happening--our own security here at home in the Middle East. So 
we can't leave it. That Middle East, North Africa, sub-Saharan 
Africa, that is where the threat of Islamic extremism is coming 
from.
    On the other hand, we do have--I am sure there was a way in 
which people who were fashioning our policy in the 
administration saw the pivot or the rebalance, which is a 
better term, to Asia as part of the end of the era of Iraq and 
Afghanistan, and moving on to this dynamic region of the Asia 
Pacific, which was also extraordinarily active economically and 
increasingly important to us in the U.S. economically.
    But, you know, the fact is both of those arguments are 
right and therefore you can't turn away from either one, and 
the irony here is--you probably all have found this--if you 
talk to people who are in the government of our allies in Asia 
they are unsettled as they watch the Middle East and they think 
that we are pulling out because they are seeing themselves and 
they are saying whoa, if--you know, if we get in trouble--if we 
have a problem with China will the United States come to our 
aid.
    There was an Ambassador from one Asian country. I asked 
about the pivot to the Asia Pacific and he said to me, I am 
sure the Americans are on the way--they just haven't arrived 
yet, because they don't see that pivot and it is very important 
to them.
    Mr. Sherman. I believe my time has expired but I will note 
that Japan, which is willing to have us spend hundreds of 
billions of dollars to have the naval forces to protect the--
they call them islands, the barren rocks in question, continues 
to refuse to spend even 1 percent of its GDP on its own 
defense. I yield back.
    Mr. Poe. The chair recognizes the gentleman from Illinois, 
Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Mr. Chairman, and thanks for 
holding this very important hearing and one that I think, 
unfortunately, has lost a lot of the attention of the American 
people. Senator, Representative, I thank you guys for being 
here. Thanks for your service to your country.
    You know, we--the chairman mentioned and, you know, you 
hear it all the time in the media this idea of war weariness, 
and while I think there is something to it I am actually in the 
process right now of reading a book about a company commander 
in World War II and, you know, you see about a guy that 
literally started out with a couple hundred people under his 
command and ended up with one at the end of various battles.
    And you think about the intensity of which America 
confronted her enemies back in World War II, and while today 1 
percent of Americans actually serve in the military and so I 
understand an idea of war weariness but I don't think we have 
carried near the burden as what the generation of World War II 
carried.
    And my concern is in 10 years and in 20 years when history 
books are written about this moment, which I think is a very 
important moment in American world history, what is it going to 
say about the United States?
    Is this the moment at which we doubled down and said we are 
committed to a free world, we are committed to a strong 
America, we are committed to allowing the people that live 
behind the new soft iron curtain and the iron curtain of 
tyranny to look at the United States as an example of what they 
want to be and what they want to aspire to?
    Or is it the moment we decided to withdraw within ourselves 
in an increasingly global world and we will find that that 
bites us in the backside? And one of the areas I have been 
concerned with, to both of you, is Iraq. I am a veteran of 
Iraq.
    I flew airplanes in Iraq and I feel every day almost a 
sense of mourning when I see the flag of al-Qaeda flying over 
where the Marines fought the hardest that they have fought 
since Vietnam--that bothers me--in Fallujah.
    I think of my colleague out here, Duncan Hunter, who is a 
veteran of Fallujah and think of now what that leadership is on 
and I think of the message that we sent to our enemy that the 
moment we said, you know, we fought hard, we spent a lot of 
lives and treasure and we can argue about whether we should 
have gone in or shouldn't.
    But then at the end of the day because in my mind to keep a 
political promise we pulled all the troops out of Iraq and 
didn't leave a residual force, and I look at now what is going 
on in Afghanistan with concern. The elections went well and I 
hope that the bilateral security agreement is signed.
    But I think it is important for us to show a strong 
presence post-2014 lest we repeat the mistakes that we repeated 
in Iraq. I spent a long time opening that up but, Senator, I 
wanted to ask you specifically about Syria.
    I hear people talking, and I was a big supporter of saying 
we needed to enforce the red line in Syria. I believe that was 
a turning point in American foreign policy when we failed to do 
that. But I am hearing people, sadly, say that Assad is the 
only protector of Christian minorities in Syria.
    I hear people say that Assad is maybe not a good man but he 
is better than the opposition. Senator, can I ask you--can you 
talk about the opposition and dispel this notion about the fact 
that the opposition is all al-Qaeda and we either have to 
support a brutal dictator or we are supporting al-Qaeda?
    I heard somebody famously say in my own party that had we 
enforced the red line we would act as al-Qaeda's air force, 
something that is very offensive to me as an Air Force pilot. 
So go ahead, sir.
    Mr. Lieberman. Thanks, Congressman. I totally agree with 
you. Assad is not a good man. He is a bad man. He is a brutal 
dictator. I mean, this all started with peaceful protests 
against his government and then he turned his weapons on his 
own people.
    I went over there pretty early in the conflict and met with 
some colleagues from the Senate with the opposition to Assad 
and my judgement was and my colleagues' was very strongly that 
these were not al-Qaeda or violent Islamist extremists.
    These were Syrian nationalists. They were patriots. They 
were sick and tired of being abused by the Assad 
administration, and I will tell you that their motivations were 
as much economic as they were political.
    They felt quite rightly, just as the protestors in Egypt 
and Libya and Tunisia did, that the ruling clique, which is 
Assad and his group, were essentially stealing the wealth of 
the country and these people, a lot of them educated, had no 
chance to live better for their families.
    We didn't support them when we should have and it allowed 
Assad to kill a lot of people and it opened up a vacuum in 
which these thousands of foreign extremist fighters have come 
in. But we still know who the moderate anti-Assad people are.
    We can't yield to Assad. This man has blood on his hands in 
the most awful way and I think we have got to go in. We got to 
find people who we agree with, we know who they are, people who 
want us to come in who are pro-American and support them as 
best we can.
    And, you know, I am one who would still go back to that 
decision the President made about the red line and use American 
air power to inflict some punishment on the Assad government, 
which is our only hope now of bringing him to any kind of 
discussion of ending this conflict because right now Assad 
thinks he is winning, and you know what? He is.
    Mr. Kinzinger. I think a multi prong strategy of both 
enforcing the red line and also holding true what we have for a 
decade, that there will be no safe haven for al-Qaeda anywhere 
in the world and that includes parts of Syria.
    So with that, Mr. Chairman, thank you and thank you to the 
guests. I yield back.
    Mr. Lieberman. Thank you.
    Mr. Poe. The gentleman yields back. Chair recognizes the 
other gentleman from Illinois, Mr. Schneider.
    Mr. Schneider. Thank you, Mr. Chair. Again, to the 
witnesses, thank you for being here today. Thank you for your 
service to our country. Representative Harman, I want to go 
back to what you talked about--winning the argument--and the 
argument, if you will, on one hand is about narratives.
    It is about where do we see or how do we help people see a 
different future, set their goals and aspirations to something 
that will pull them away from al-Qaeda. But for al-Qaeda I fear 
that the argument is an ideology and it is much harder to 
change or win an ideological argument. How do we balance those 
two things or how do we make sure that we can win that 
ideological argument?
    Ms. Harman. Well, there are some in al-Qaeda who can't be 
rehabilitated and I am not against the use of force. I am not 
against the use of drones. I am not against the use of Special 
Forces in some cases under strict explainable legal limits to 
act against those folks.
    I was not unhappy when Osama bin-Laden was taken out. I 
certainly was not unhappy when a dual national, al-Awlaki, a 
U.S.-Yemeni dual national, was taken out in Yemen. I didn't 
think there was another alternative and I didn't think that guy 
was rehabilitatable and he posed an imminent threat to us and 
he couldn't have been captured. So I get that part.
    But I am talking about the fresh recruits to al-Qaeda, the 
kids who are a huge part of the force that is willing to die 
who could go either way. I mean, think about our inner city 
gang problems. It is similar.
    If there is some impressionable kid who hears only from 
hardened gang members that kid will probably go that way. On 
the other hand, if that kid has other messages and other 
opportunities he/she may not.
    So winning the argument is both being tough with those we 
can't persuade but also finding ways through their own 
governments to reach folks who could be persuaded--decent 
education, better living standards, respect, fair treatment of 
women and girls. I mean, a whole list of things we understand.
    If I could just add one thing. Mr. Sherman said it and Mr. 
Kinzinger said it too though. We have to understand better what 
tribal societies look like. That is one of our problems in 
Syria.
    We didn't really know--some in our Government really didn't 
know the best way to intervene with the opposition because they 
worried that helping X would hurt Y and so on and so forth.
    We need more sophistication and I do agree with Mr. Sherman 
that having some Islamist scholars guide us is a good idea. The 
foreign minister of the E.U., Catherine Ashton, was at the 
Wilson Center recently and she said our understanding of tribal 
societies is very poor--the West's understanding. I agree, and 
if we are going to win the argument we have to have a better 
understanding.
    And finally, I would say that a model--it is not perfect 
but a model for what could happen in Syria is what did happen 
in Yemen. Not perfect, but remember the real bad guy 
voluntarily left the government. Someone else, in fact his 
deputy but there was support by many tribes, was elected and 
there is still--there is still huge problems with parts of 
Yemen. But it is a much more peaceful society than it was 
before this happened.
    Mr. Schneider. Well, I think as you touched on using the 
analogy of gangs is understanding that all of this takes place 
within a certain context and in Syria the context is within 
clans and tribes and the different regions and how that is 
playing out.
    My understanding is there are many--as many foreign 
fighters on both sides of the battle in Syria. There is al-
Qaeda, al-Nusra and the Sunni fighters but you have Hezbollah 
and Iranian Guard and fighting on behalf of Assad and that is 
the fight that is taking place within the context.
    And Senator, I guess I will turn this to you with the last 
minute that I have. The idea of U.S. leadership, the idea of 
having our narrative and the vision of giving people the 
opportunity to achieve their dreams, women and children, all of 
that being something that allows people to see a different 
story, a different future for their communities and their 
countries, what more can we or should we be doing to make sure 
that we do win this war with al-Qaeda?
    Mr. Lieberman. Well, that has to start with the President 
and, really, this President is capable of excelling at 
communication but I think forces have drawn him inward post-
Iraq and Afghanistan and we suffer from it.
    By our Declaration of Independence we were given a mandate, 
a responsibility, a kind of destiny to carry that message which 
was universal human rights and there is no people in the world 
that don't respond to that. We are just not making the case.
    We are not out there making the case enough and, obviously, 
Congressman Sherman talked about the lack of an Islamic scholar 
on the board of governors--broadcast board of governors. That 
ought to be. We ought to be--because the--part of the essence 
of our enemy here is a terrible exploitation and abuse of 
Islam.
    We have to--and it represents really a minority of the 
Muslim world. We have to fight that and come back at it on the 
ground of Islam. Incidentally, we also have to say, which I 
think we believe--I certainly do--that not every form of 
political Islam is wrong.
    There are moderate political Islamists. You know, religion 
plays a large part in the public life of America. We have--some 
of our allies in Europe are run by people who lead parties 
called Christian Democratic Parties. There is nothing 
inherently wrong with linking religion and politics. But once 
you take it as al-Qaeda does to violence and extremism then it 
has got to stop and I think we have got to make that case.
    Congress can do more, broadcasting can do more but honestly 
it has to start with the number one American, who is the 
President.
    Mr. Schneider. Thank you. I am out of time. With that, I 
yield back.
    Mr. Poe. Chair recognizes the gentleman from Pennsylvania, 
Mr. Perry.
    Mr. Perry. Thank you, Mr. Chairman, and great to see you 
both again. Thanks for your testimony and your candor. And I 
think about the discourse and I would agree with my colleague 
that I think much of America has kind of lost track of this 
discussion over lost airplanes and Ukraine and or economy or 
jobs, et cetera. But, you know, this briefing I have describes 
al-Qaeda as either in the minimalist view or the expansive 
view.
    And I don't know if you are familiar but, you know, the 
minimalist view views and understands al-Qaeda as group senior 
leadership and recognized affiliates, and also sees it more of 
a brand--more of a brand than a hierarchal organization and it 
is not really al-Qaeda if it is not planning attack against the 
United States or United States interests.
    You know, is it partisan to say--is it--would it be your 
view that the administration has kind of taken on that 
minimalist view of al-Qaeda based on that description?
    Mr. Lieberman. That is really interesting. So I would say 
that the administration has been committed to this fight 
against al-Qaeda. I mean, I have had arguments with them 
because they won't broaden the vocabulary to say the fight is 
against not just al-Qaeda but violent Islamist extremism. That 
is really what it is.
    But I do think that the administration's pulling back from 
global leadership more generally has contributed significantly 
to that view, that essentially the battle against al-Qaeda has 
been won--we can move on to Asia--the Asia Pacific.
    And it is not so. I want to just finish my response and go 
back in a way to what Congressman Schneider asked me. I think 
that though everybody is prepared to say the American people 
are war weary and on polls they seem to suggest that they are 
not for a lot of the things that--more involvement in Syria, et 
cetera, they have seemed to be awakened by what has happened in 
the Crimea.
    But I want to just point out something else. I think 
ultimately that public opinion is much more nuanced and 
complicated than we are rushed to make it and maybe this is a 
transition to the next panel you have Fred Kagan on. I hope he 
forgives me if I cite his brother, Bob.
    Bob Kagan just wrote a fascinating piece in which he said 
look at all these public attitudes in America about involvement 
in crises around the world. The American people say they don't 
want us to get involved.
    The President doesn't get involved and yet you ask the 
American people do you approve or disapprove of the President's 
foreign policy. The numbers are lower than if you ask the 
President--if you ask do you approve of the President's policy 
on the economy or, dare I add, health care reform.
    In other words, a lower opinion of his policy on foreign 
policy. So, you know, this goes back to American ideals. 
American people ultimately they don't want us to go recklessly 
picking fights everywhere around the world.
    Mr. Perry. But this is real. This al-Qaeda threat is real. 
It is real.
    Mr. Lieberman. And people get it. I mean, the people still 
remember----
    Mr. Perry. And it is not partisan to say it is real----
    Mr. Lieberman. Not at all.
    Mr. Perry [continuing]. And this approach of pulling back 
and kind of watching what is over there and as long as they are 
not launching planes into buildings here we don't have to worry 
about it. That is not partisan. That is just reality.
    Mr. Lieberman. Right. And your point, I think, is--it is 
one thing to say we are launching drones against terrorists in 
Pakistan or Yemen or wherever. I support that.
    But then if at the same time you just stand back from Syria 
and Iraq you are inviting the same sanctuaries for terrorists 
that happened in Afghanistan before 9/11 and from that, as Jane 
said earlier, they will attack us once again.
    Mr. Perry. And I can tell Ms. Harman is bristling.
    Ms. Harman. Yes. If I could just add. I am not sure I agree 
with the way you have phrased the question. I agree with a lot 
of what you believe but not phrased that way.
    First of all, I always said that the so-called war on 
terror was a misnomer. Terror is a tactic. It was and it should 
be a war on al-Qaeda and its affiliates and we still are at war 
with al-Qaeda, and I think the actions of this administration 
on that specific point have been pretty robust.
    Remember, al-Qaeda is not a top-down vertically integrated 
structure anymore. It might become that again but it isn't now. 
It is a set of horizontally affiliated--loosely affiliated 
opportunistic groups. They are not all al-Qaeda. They come 
together sometimes to do missions together. They also fight 
with each other, something I was pointing out.
    We have to be vigilant against those folks and I think the 
actions of this administration, using drones and using Special 
Forces in particular, have taken out more al-Qaeda than the 
actions of the prior administration.
    I don't think this is a score card but it is a fact that 
that has happened. So what does all that mean? I don't think it 
is fair to say has this administration abandoned the fight 
against al-Qaeda.
    I think the answer to that is no. Should America offer 
robust leadership all over the world? The answer to that needs 
to be yes and there I would say some of our leadership needs to 
be a lot stronger.
    And so I just see the question differently and I do admit 
and I said it in my testimony and I know we agree on this that 
there is a real al-Qaeda threat, different from the threat on 
9/11 but a real al-Qaeda threat in lower tech attacks and 
homegrown terror and things of that kind, not just in the 
United States but it is in the United States.
    Mr. Perry. I yield, Mr. Chairman.
    Mr. Poe. Gentleman yields back. I want to thank both of you 
for being here today and the time you spent. The testimony has 
been excellent, superb and you are both free to go if you wish 
or you can come up here and ask some questions, whichever you 
prefer.
    Mr. Lieberman. Thanks, Mr. Chairman. Thanks again to you 
and Congressman Sherman for convening this hearing and trying 
to focus us back on this real threat to our security.
    Ms. Harman. Mr. Chairman, if I might add that we shouldn't 
just talk about things being bipartisan. With Joe Lieberman 
here they are tripartisan.
    Mr. Poe. That is correct. Thank you very much. We will move 
on to our next panel.
    Thank you, gentlemen, both for waiting and I am sure you 
took in the testimony of our two other witnesses. I will 
introduce our three members of this panel and then we will have 
your testimony and proceed from there.
    Dr. Seth Jones is associate director of the International 
Security and Defense Policy Center at the Rand Corporation as 
well as an adjunct professor at Johns Hopkins University School 
for Advanced International Studies.
    He served as a representative for the commander of U.S. 
Special Operations Command to the assistant secretary of 
defense for special operations. Before that he served as a 
plans officer and advisor to the commanding general of U.S. 
special operations forces in Afghanistan.
    Dr. Fred Kagan is the Christopher deMuth chair and director 
of the Critical Threats Project at the American Enterprise 
Institute. In 2009, he served in Kabul, Afghanistan as part of 
the General Stanley McChrystal Strategic Assessment Team and 
returned years later to conduct research for Generals Petraeus 
and Allen. In July 2011, Chairman of the Joint Chiefs of Staff 
Admiral Mike Mullen awarded him the Distinguished Public 
Service award, the highest civilian honor.
    And Mr. Benjamin Wittes is a senior fellow in the 
governance studies at the Brookings Institution. He is a co-
founder and is the editor-in-chief of the Lawfare blog which 
covers hard national security choices and is a member of the 
Hoover Institution's task force on national security and law.
    He is the author of many books and is currently writing a 
book on data and technology proliferation and their 
implications for security.
    Dr. Jones, you may proceed with your opening statement.

      STATEMENT OF SETH JONES, PH.D., ASSOCIATE DIRECTOR, 
    INTERNATIONAL SECURITY AND DEFENSE POLICY CENTER, RAND 
                          CORPORATION

    Mr. Jones. Chairman Poe, Ranking Member Sherman and other 
members of the subcommittee, thank you for inviting us to 
testify at this hearing.
    I have divided my comments into three sections. The first 
provides an overview of the evolving terrorism threat. The 
second examines the role of special operations, which is what I 
was asked to comment on, and the third offers a brief 
conclusion.
    Let me just talk briefly about the threat. I know we have 
heard from other members and then the witnesses in the first 
panel but let me just say that at least based on my estimates 
the United States will likely face a persistent threat from 
groups operating particularly in North Africa, the Middle East 
and South Asia.
    Of particular concern is the threat from al-Qaeda and other 
Salafi jihadist groups. A couple of concerning trends I just 
wanted to highlight. One is when you look at the data, collect 
the data on groups and fighters, the number of jihadist groups 
and fighters have both significantly increased since 2010 in 
countries like Syria, Lebanon, Egypt, Libya, Mali, Algeria, 
Tunisia.
    There has also been a notable increase in the number of 
attacks, particularly by al-Qaeda and its affiliates, and I am 
happy to talk about the data later.
    Second, though, it is worth noting that the broader 
movement has become more decentralized among a range of tiers 
from the core in Pakistan to formal affiliates, a panoply of 
other jihadist groups who haven't sworn allegiance to al-Qaeda 
but whose goal is still establishing an extremist Islamic 
emirate in areas they control and then the inspired individuals 
that we saw 1 year ago in Boston.
    Let me say, though, that using the core al-Qaeda and its 
strength or weakness as a gauge of the movement, in my view, is 
increasingly anachronistic because of what we are seeing more 
broadly.
    And then finally, I think it is worth noting that the 
threat posed by this diverse set of groups varies widely and we 
can certainly talk about that later. Again, in my view, the 
most significant threat remains the group operating in Yemen.
    Somewhat recently the core appears to have become more 
involved in plotting including in Europe and potentially 
against the U.S. homeland so I would not count the core out in 
Pakistan.
    Let me turn briefly to one of the issues I was asked to 
talk about, which is the role of special operations. Based on 
this persistent threat, it is probably worth noting that a 
range of military, intelligence, financial, law enforcement, 
diplomatic and other tools from across the U.S. Government are 
important in conducting counter terrorism.
    Nonetheless, special operations forces--and I was in 
special operations command and then worked in and for the 
assistant secretary for special operations in the Pentagon--
special operations can play important roles in several areas. 
One of them is building partner capacity and supporting foreign 
internal defense overseas.
    People often think of special operations forces as 
conducting direct action, targeted killing or capture. But I 
think without a doubt the vast majority of special operations 
activity and some of its most useful is training local forces 
and government entities. Special operations forces are trained 
to understand local culture, society, language, economy, 
history and politics. So quite useful.
    On the direct action side, they can also get involved in 
precision targeting of terrorist groups and that is useful, 
although I would also say they have been very useful in seizing 
supplies, undermining finances of groups, overseeing 
psychological and information operations, conducting and 
collecting intelligence, engaging with state and substrate 
entities. But there are a range of ways that they can be 
useful.
    I wanted to highlight the role of the drones. This is a 
controversial subject. In my view, there are risks with some of 
these activities. There are limitations to using armed drones 
to strike terrorists.
    There is mixed evidence, at least as far as I have looked 
at this issue, that drone strikes and then broader decapitation 
strategies alone are effective. Groups can survive a strike 
when they establish more decentralized leadership, possess an 
ideology that still has followers or are able to appoint 
competent leaders in their places.
    So I would--I would warn against focusing too much on the 
drone strikes. Let me just conclude by noting that Congress has 
played and should continue to play a critical role in helping 
support the conduct of special operations forces in 
counterterrorism missions.
    But again, and they can do this in a whole range of ways 
including Section 1208 and 1206 authorities, but let me just 
say this is a lot more than just strike operations. The 
training overseas, especially of weak governments that need 
assistance, is a critical part.
    Thank you, Chairman Poe, Ranking Member Sherman and other 
members of the committee. I look forward to your questions.
    [The prepared statement of Mr. Jones follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Poe. Thank you, Dr. Jones.
    Dr. Kagan, you have 5 minutes.

  STATEMENT OF FREDERICK W. KAGAN, PH.D., CHRISTOPHER DEMUTH 
    CHAIR AND DIRECTOR, CRITICAL THREATS PROJECT, AMERICAN 
        ENTERPRISE INSTITUTE FOR PUBLIC POLICY RESEARCH

    Mr. Kagan. Thank you, Mr. Chairman, Ranking Member Sherman. 
I will start by agreeing with everything that Seth said, which 
has become more and more common for us so I won't reiterate 
that ground.
    I want to make a few points that are--some of which are in 
my written testimony and some of which are extrapolations from 
it. First of all, I think it is very important to step back in 
this conversation and stop compartmentalizing problems to the 
degree that we have been.
    There is a lot going on. We get a very staccato news cycle. 
We get now it is this week it is Ukraine, you know, next--now 
it is the Iranian negotiations, now it is this, now it is that.
    And al-Qaeda--the al-Qaeda problem gets put in a pigeon 
hole, historically a rather large one, now an ever shrinking 
one, I would say, and within that there are a number of 
individual pigeonholes that we put al-Qaeda groups into and 
that especially this administration has been eager to parse the 
groups, I think, too finely and talk about al-Qaeda core as 
being the real problem and get into arguments about whether 
this group or that group is actually part of al-Qaeda or is 
actually covered by the authorization to use military force, 
which Ben will talk about.
    And the legalisms are very important and getting the 
legislation right is important. But it should not be allowed to 
shape the way that we understand the group because the group is 
a holistic entity and it does not make sense to look at an al-
Qaeda franchise in Yemen or al-Shabaab or al-Qaeda in Iraq, now 
ISIS, and argue about whether these are parts of al-Qaeda.
    They are parts of al-Qaeda and they do share the global 
ideology of al-Qaeda and this is one of the things that I think 
has also gotten lost in the discussion about local groups 
versus global groups, that the administration talks about a lot 
on the premise that we shouldn't really concern ourselves too 
much with local groups--locally focused groups--and we should 
really focus on those that are trying to attack the United 
States.
    And the problem is that as you look at what happened in 
Syria when we got into--when they got into the argument about 
whether the Islamic state of Iraq and ash-Sham was or was not 
operating in Syria and Zawahiri came in, it forced the actual 
Syrian al-Qaeda franchise, Jabhat al-Nusra, to decide whether 
or not to declare itself publically as an al-Qaeda franchise.
    And the issue was put very starkly then to Jabhat al-Nusra 
as we have seen it in a couple of other places, namely what is 
meant by that, what is the distinction between Jabhat al-Nusra 
focused on Syria and being Jabhat al-Nusra as a member of al-
Qaeda.
    And the distinction is signing up to the global jihad, 
signing up to the global ideology and signing up to the support 
of attacking the West, and I think this has gotten lost in the 
conversation. This is a live discussion amongst radical 
Islamist groups.
    Do you or do you not support the global jihad? Do you or do 
you not believe that we should take the fight to the West? 
Wwould you or would you not support that whether or not you 
would do it yourself?
    And what is interesting is that groups like Jabhat al-Nusra 
who have been confronted with that and pay a price locally in 
Syria for being affiliated with al-Qaeda nevertheless adhere 
when pushed and say yes, we are an al-Qaeda franchise and in 
fact we are the only al-Qaeda franchise.
    That should give us a lot of pause because that is a 
conscious decision that that group has made to stake a claim to 
an ideology that is explicitly distinguished from the 
alternatives by the fact that it is part of the global movement 
and sees the United States in part as a major enemy.
    About the AUMF, we had been having a very good conversation 
previously and I will leave it to the expert on the AUMF to 
talk about the language there. My sense is that the 
administration has tended to take--this administration has 
tended to take an overly narrow view of the AUMF by deciding in 
many cases that it is only applicable to people who were 
actually members of al-Qaeda on September 11, 2001 which I 
don't think is what it says and which, of course, is an 
absolutely failed strategy regardless of what--whether or not 
the AUMF covers that.
    But the more important point to me is that we have come to 
mistake the AUMF for the strategy against al-Qaeda and this is 
a huge mistake because the AUMF authorizes force by which we 
mean targeted strikes and so forth, and Seth made the point 
better than I could that that is not an--that is not a strategy 
and it will not be effective against this organization.
    We need to understand that special operations forces do 
fit. We need to understand that there have to be other 
comopnents of a strategy than simply attacking the leadership 
under an AUMF. And so as we talk about the AUMF, as we think 
about under what authorities people do anything, it is very 
important not to allow us--not to allow that discussion to 
shape our entire discussion of a strategy that is going to have 
to be a lot more holistic than that and for which, frankly, the 
military and the administration already have a lot of 
authorities and don't need authorities to do it in a lot of 
places, don't need special authorities to do various other 
things.
    But we have gotten too focused on targeted killing and we 
are not going to be able to kill our way out of this problem. 
Thank you.
    [The prepared statement of Mr. Kagan follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Poe. I thank the gentleman.
    Mr. Wittes.

  STATEMENT OF MR. BENJAMIN WITTES, SENIOR FELLOW, GOVERNANCE 
               STUDIES, THE BROOKINGS INSTITUTION

    Mr. Wittes. Thank you, Chairman Poe and Ranking Member 
Sherman for inviting me to present my views. You have asked me 
to address both the AUMF and intelligence collection under 
Section 702 of the FISA Amendments Act, so I am not sure these 
issues directly concern, you know, whether al-Qaeda is winning 
much less do I mean to sit here and try to grade the 
administration's performance to date.
    But they definitely do involve sort of the structural 
question of whether the administration, this one and the next 
one and the one after that, will have the tools to make sure 
al-Qaeda doesn't win and that our counterterrorism policy gets 
to receive good grades in the future.
    So as a preliminary matter, the two topics that you have 
asked me to address are actually kind of, sort of only oddly 
related to one another. They involve different legal 
authorities passed at different times with fundamentally 
different purposes.
    But there is a very important common thread between them 
that I want to draw out here. These are two of the most 
important legal instruments in the struggle this committee is 
endeavouring to assess. One is the key legal authority for 
virtually every military action the United States undertakes in 
its battle against al-Qaeda, its offshoots and its affiliates.
    And the other is the single most important legal authority 
the intelligence community has for collecting intelligence 
against the al-Qaeda target as well as against a sort of wide 
variety of other national security priorities. And, 
importantly, both laws are today for very different reasons 
under considerable stress.
    So, you know, to put it bluntly, major pillars of the legal 
architecture of our conflict with al-Qaeda are now on the 
legislative table and Congress, over the next few years, is not 
going to be able to avoid the question of how much it wants to 
alter the fundamental architecture of that conflict.
    So let us start with the AUMF and why, exactly, that is 
under stress today. So President Obama has announced that he 
wants to end the AUMF conflict. He has spoken passionately 
about this and I think, you know, entirely sincerely, and I am 
sympathetic to the objective, frankly.
    I am not--you know, the idea of endless war is not 
attractive and most analysts, whether they favor repeal of the 
AUMF or reauthorization and refinement of it in some form of 
agree that the current AUMF is badly out of date.
    So it is tied textually to the September 11th attacks and 
for some of the reasons that my colleagues have said here it 
does not really describe well the conflict the United States is 
currently pursuing.
    This actually creates operational problems. Specifically, 
there are groups that oppose ongoing and growing threats that 
the application of the AUMF to which is something of a puzzle 
and in some cases hard to make a good legal argument for and 
the administration has struggled with that a lot.
    So as you can probably tell, the answer to these problems, 
in my view, is not the repeal of the AUMF or the declaration of 
the end of the conflict. The first and most obvious reason for 
that, and I go into some others in my written statement, is 
that Congress may wish to continue to authorize military force 
against foreign terrorist groups that actively threaten the 
United States, and unless one believes that the result of 
ending the AUMF conflict will be the near exclusive reliance on 
law enforcement authorities and that this is a desirable 
outcome, the realistic alternative to a new AUMF is not--is 
likely to be excessive reliance on the President's inherent 
Article 2 powers, and I confess I can't see that as an 
attractive option.
    I think the better option is a statutory option, which is 
to modernize the AUMF. In my view, Congress ought to authorize 
the executive branch to use force against groups the executive 
formally designates as posing an imminent threat to the United 
States, and it should pass a series of accountability 
mechanisms so that Congress is kept informed of the executive's 
view of the scope of the authorization's coverage.
    The idea here is to create both a more nimble instrument--
as the enemy continues to shift it stays current and more 
adaptable--but also to create a more accountable instrument 
that ensures appropriate interbranch cooperation in defining 
the contours of the conflict.
    So if I may, I would like to tie this very briefly to the 
question of intelligence collection under Section 702. Good 
intelligence is key to any armed conflict and good technical 
intelligence is a huge U.S. advantage in the fight against al-
Qaeda.
    But technical intelligence, ironically, becomes more 
important the more one attempts to narrow the conflict. So the 
fewer boots on the ground we have in Afghanistan, the more we 
rely on drone strikes in areas where we lack large human 
networks, the more, not less, we will rely on technical 
intelligence collection.
    And if you imagine staying on offense against a 
metastasizing al-Qaeda after the withdrawal from Afghanistan, 
you have to imagine a huge burden on technical collection. And 
this is why it is such a problem that even as we have narrowed 
the AUMF conflict and contemplate its formal end, serial leaks 
have generated such incredible anxiety about Section 702 
collection and collection under Executive Order 12333, and all 
these calls in the press and the general public, among our 
allies and in Congress for reform and substantial changes to 
these practices.
    Section 702 actually sunsets in 2017. If we don't maintain 
the political will to have these authorities they actually go 
away. The legal regime here is one that Congress knowingly and 
deliberatively created and in my view, really requires no 
apology.
    It really needs an active defense, and there are certainly 
areas where the regime could benefit from reform. The big risk 
here is that overreaction and panic in the face of exposure 
will lead to a burdening of our core signals intelligence 
capacity with legal processes designed to protect domestic 
civil liberties.
    To the extent that members of this committee and this body 
continue to believe, as I do, in the essential integrity and 
value of the legal authorities for intelligence collection and 
oversight, the essential legislative task in this environment 
is to defend that architecture publicly and energetically to 
ensure it remains available.
    Thank you. I would be happy to take any questions you may 
have.
    [The prepared statement of Mr. Wittes follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Poe. Thank you.
    Each of you have been furnished a map that I mentioned at 
the opening statement earlier. Generally, I would like to get 
your input. Do you think that is a fairly accurate summary of 
al-Qaeda worldwide? Dr. Jones.
    Mr. Jones. I would quibble with the--some of the shaded 
areas in a few cases and then I would add some areas in a few 
others. I see no--I see no highlighting of the Sinai in Egypt 
or the Muhammad Jamal network operating in Egypt. So I think it 
does reflect a number of countries where al-Qaeda or other 
groups are operating. I would add a few things, take a way a 
few things but----
    Mr. Poe. All right. Let me ask you this, all of you, and 
weigh in on the money. Where does al-Qaeda generally--the core 
and these little bitty groups, affiliates--where do they get 
their money? Finances.
    Mr. Jones. I can start.
    Mr. Poe. Go ahead.
    Mr. Jones. It depends on the affiliate and the specific 
group. There is money that the core has received and some other 
groups have received from the Gulf. We know that from wealthy 
Gulf donors.
    In some areas in Somalia, for example, al-Shabaab has been 
involved in both illicit and licit trafficking in a whole range 
of activities including charcoal. Kidnappings have been 
extremely profitable among al-Qaeda and al-Qaeda affiliates.
    So I would say there is a fair amount of redundancy in the 
financing from wealthy donors including from the Gulf but also 
now from the Levant with the Syrian groups from the kidnapping 
and from other licit and illicit activities.
    Mr. Poe. Do you want to add anything to that, Dr. Kagan?
    Mr. Kagan. I would say it is important to keep in mind how 
robust and diversified are the sources of income that these 
various groups harness.
    The threat finance problem here is an absolute nightmare 
and it is not something that I think we are likely to be very 
successful with although we could be doing a lot more I think 
than we have been in come cases.
    But one of the things that Seth did mention that I think is 
very important to keep in mind is where they control territory 
they tax the population and this is not a terror----
    Mr. Poe. They set up their own tax structure?
    Mr. Kagan. They do.
    Mr. Poe. When they control an area they tax the people like 
they were the legitimate government?
    Mr. Kagan. They do, and it is very important to keep that--
--
    Mr. Poe. And they are doing that in Syria, aren't they?
    Mr. Kagan. They are doing it in areas of Syria. They are 
doing it in Iraq. They are doing it a little bit more carefully 
in Yemen. They had been doing it a lot in Somalia. They are 
doing it in North Africa.
    They are also--you know, they were trying to do it in the 
Caucuses until the Russians had at them and that is one of the 
areas on the map that needs to be added back in because the 
Islamic emirate of the Caucuses which had been moribund is no 
longer and is a group that is going to matter. But they do have 
the trappings of a state.
    They do set up the trappings of a formal state. In fact, 
al-Qaeda in Iraq, or ISIS, is setting up governorates all 
around Afghanistan and it is really important, again, that we 
keep that in mind because too often the discussion is had in 
terms of al-Qaeda as a terrorist group that intends to attack 
us.
    It is a terrorist group. It does intend to attack us but 
that is not how it defines itself. It defines itself as an 
insurgency moving into a governing power wherever it can.
    Mr. Poe. They go in and take, try to take over an area of 
some country----
    Mr. Kagan. Right.
    Mr. Poe [continuing]. And just set up a state within a 
state of some type?
    Mr. Kagan. Well, they set up an independent emirate and 
then they talk about the relationship of that emirate to other 
emirates that they are trying to set up.
    Mr. Poe. All right. And let me ask this of you. What is--
what is our overall plan? We have talked about al-Qaeda here 
for several hours. What is the United States' overall policy 
and plan and where do we need to improve it?
    I am not looking for criticism of any administration. I 
just want to know what is our plan, what do we do if we want to 
eliminate, go after, diminish this al-Qaeda threat? Dr. Jones, 
you are first again.
    Mr. Jones. I don't know what the plan is. We have put out 
a--the administration has put out a counter terrorism strategy 
but I see different plans from different government agencies 
that are sometimes coordinated and sometimes not very well 
coordinated. I cannot give you a concise answer about what our 
plan is.
    Mr. Poe. So we don't have a plan that you know of. What 
should it be? Dr. Kagan, do you want to weigh in on that in the 
remaining minute?
    Mr. Kagan. In 30 seconds what should the plan for defeating 
al-Qaeda be?
    Mr. Poe. Yes. Thirty seconds.
    Mr. Kagan. I don't know. The problem is that not only do we 
not have a plan but we don't have an agreed upon definition and 
this is something that is very distressing at this point. But 
when you look through administration statements, and we will 
have a paper coming out soon from AEI from Mary Habeck, going 
through this in a lot of detail it is actually very hard to 
figure out exactly what the administration thinks al-Qaeda is. 
And so before we have a plan----
    Mr. Poe. So we can't define the enemy, so to speak?
    Mr. Kagan. Well, I think one could define the enemy but I 
think that this administration has not defined the enemy in any 
clear way and there is no prospect for having a plan to deal 
with something that you haven't defined properly.
    Mr. Poe. Right. I yield to the ranking member, Mr. Sherman, 
from California.
    Mr. Sherman. I would point out that al-Qaeda and its 
ideology will inspire people to die and to kill until such time 
as it becomes apparent that dying and killing will not bring 
any portion of the victory that they are seeking, that it will 
not recreate a single Islamic caliphate.
    It will not conquer additional territories for Islam beyond 
where there are Islamic majorities today and that it won't take 
every Islamic society back to the seventh century. We are going 
to have to spend a decade or two longer managing the problem 
until it becomes apparent to those with a very long time 
horizon that their tactics aren't working.
    The question is can a society that brought--that defined 
instant gratification carry on a conflict that may outlast both 
you and I, Mr. Chairman, because they are not going away 
anytime soon and as long as their ideology has appeal and the 
prospect of victory has not been defeated, we are going to be 
facing them.
    Speaking of terrorist financing, Mr. bin-Laden personally 
was a pretty wealthy man. What happened to his fortune? Does 
anybody know? I have got two witnesses shaking their heads and 
one not responding at all so I assume we don't know.
    Mr. Wittes, you talk about legal authority and the 
authorization to use military force. We have a War Powers Act 
that was designed in response to the Vietnam War where the 
focus of war powers was troops on the ground for a certain 
amount of time.
    Arguably, an unlimited number of drone attacks is 
authorized by the War Powers Act that says as long as you get 
in and out in 60 days I am not sure you even have to file a 
report.
    But if you have to file a report that is all you have to 
do. You are here visiting the world's most prominent 
dysfunctional Parliament. Do you really think we are going--
beyond relying on the War Powers Act and the authorization to 
use military force, do you really think we can pass anything 
else? I would think that perhaps we could pass something that 
is designed to trim and reduce the authorization to use 
military force and sell it not as passing something new but 
restricting something old.
    But what would you propose--what should be the legal 
structure to guide us for the next 10 years?
    Mr. Wittes. Well, so, I mean, so the question of what is 
politically doable is, frankly, beyond my competence. My job is 
to sort of figure out what I think the right answer is and so I 
think there is basically two problems with the existing AUMF.
    One is that in one sense it is hopelessly over broad, 
right. It doesn't have an end date. It authorizes sort of 
endless war against anybody the President decides is 
responsible for 9/11 or who harbored that person or who is 
affiliated with that person, right, and it doesn't have a lot 
of accountability mechanisms associated with it.
    And you are quite right that the War Powers resolution asks 
for--you know, has this sort of very intermittent interaction 
with deployments of force involving the AUMF. So it does 
authorize a sort of whole lot of unaccountable, you know, long-
term violence.
    On the other hand, it is also hopelessly too narrow, right, 
and some of the issues that Dr. Kagan raised----
    Mr. Sherman. Are you saying it is too narrow because it 
doesn't focus on every terrorist group that might wish us harm 
but only on those that have some connection with the original 
al-Qaeda?
    Mr. Wittes. Well, but take, for example, the group that 
formulates in the post-9/11 era, joins the fight to various 
extents and is a rising emergent power that we have every 
reason to be worried about and that military force may 
reasonably play a role in counteracting but that hasn't crossed 
that threshold of--the administration has a complicated and not 
altogether public legal test about who counts as al-Qaeda but 
that hasn't yet crossed that threshold or maybe as in the case 
of al-Shabaab parts of it have and parts of it haven't.
    And so you don't really know what the scope of the AUMF is 
vis-a-vis those groups that you might want to use force 
against. So what I would think is when you have--when you have 
an authorization that is in some ways substantively too narrow 
and in some ways, you know, too broad a grant of unaccountable 
power, the right strategy and we actually, a group of us----
    Mr. Sherman. Perhaps you could furnish for the record the 
AUMF reform act.
    Mr. Wittes. As a matter of fact, sir, I can. About a year 
ago, my colleagues Jack Goldsmith, Bobby Chesney and Matt 
Waxman and I tried to--tried to figure out sort of what would 
it take to rewrite the AUMF and we laid out in a sort of series 
of options what we would do.
    And, you know, I was a little but surprised when a few 
months later the President's reaction not to the paper in 
particular, obviously, but to the issue in general was that he 
would not sign and would not contemplate any sort of new AUMF.
    He was looking for its repeal. I do think that is the wrong 
direction to go. But I also think relying indefinitely on the 
current AUMF is a big mistake and it is asking for trouble. It 
is asking for trouble across a lot of different----
    Mr. Sherman. It certainly poses some real risks to civil 
liberties.
    Mr. Wittes. But I would be delighted to give you a copy of 
this if you want the details of my thoughts on it.
    Mr. Sherman. Without objection we will make it--excuse me. 
I would ask unanimous consent that it be made part of the 
record.
    Mr. Poe. Without objection it is part of the record.
    Mr. Sherman. Had to get that role right. I used to sit over 
there. I yield back.
    Mr. Poe. I want to thank you all for being here and your 
testimony--written testimony too is excellent and helps to 
broaden the scope of our knowledge of what has taken place in 
the world.
    Thank you, all three of you, and the committee--the 
subcommittee is adjourned.
    [Whereupon, at 4:34 p.m. the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

[Note: The essay submitted for the record by Mr. Benjamin Wittes, 
senior fellow, Governance Studies, The Brookings Institution, entitled 
``A Statutory Framework for Next-Generation Terrorist Threats,'' is not 
reprinted here but is available 
in committee records. This essay may also be accessed via the Internet 
at: 
http://www.hoover.org/publications/monographs/141271]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
